                                                                                                                                                                            *
                                                                                                                                                                    .           I


                                                                                                                                                                        -                           < '



                                                                                       OFFICE OFSCIENCE
                                                                                       NATIONAL  INSPECTOR
                                                                                                        FOUNDATION
                                                                                                           GENERAL
 .
 z                                                                                       OFFICE OF INVESTIGATIONS

 $#.o
  4

         ON
                                                                               CLOSEOUT MEMORANDUM
                                                                                                                                                                                                          1
                                                                                                                                                                                                          I
                                                                                                                                                                                                          I


Case Number: A05090066                                                                                                                               Page 1of 1                                           I

                                                                                                                                                                                                          1
                 A Program Manager1 received a n allegation of plagiarism and notified our office i n
                 Sep 2005. A proposal2 allegedly made use of ideas and a figure in a paper (SP),3 but                                                                                                     I



                 did not reference it. We learned S P actually referenced another paper (OP)4 for the
                 ideas and the figure, and the P I had referenced OP. We further noted O P was co-
                                                                                                                                                                                                          I
                 authored by the P I and co-PI of the proposal, so there is no question they could use
                 the material in their proposal. Accordingly, this case is closed.




                                               1
                                               %


                        ,      :                                                                                                                                                    .ii'
                               t     - '
                                              :i                  "-                                              ;?                                          ..    4   s
                                                                                                                                                                                            i
                                :',      -
                                                              "

                                                                       ,       -             . .'I                 ',ij '                             .       ..
                               :'             $1    I   '   '+,                                          -   ,                   J+'                      ,
                        *I                                                                                                                                                              I(
     .       .          6:
                                              if:                  .       )       r                               ti:       4,        :         c        ,                                 4
                                                                                                                                                                                                          I
                                                                                                                   ,-c                                                                          t
                              I:(             :t.
                                                                                               ,     ,           v;:;,
                                                                                                                                       .     ,   ",
                                     .                             .*:
                                                                                                                    r!
                                                                                                                                 'l.
         *   a,< r
                       ,*     15
                                         <i                                                                                 J,             r                  i                     t



                              $. r
                              1*;
                                         ,    ;:I
                                                                                                         I

                                                                                                                  ,I:
                                                                                                                                                               ':           .               \
                                                                                                                                                                                            'b




                                                                                                                                                                                        i   "




NSF OIG Form 2 (11102)
